NO.___________
IN THE SUPREME COURT OF THE UNITED STATES
CHRISTIAN ALEJANDRO PEREZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
IN THE SUPREME COURT OF THE UNITED STATES
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in the
following Court(s):
Court of Appeals for the Fifth Circuit
United States District Court for the Southern District of Texas
The appointment was made under the following provision of law: Criminal Justice
Act. A copy of the order of appointment is appended.
Date: December 26, 2020

SANDRA A. EASTWOOD
Attorney at Law
By: /s/Sandra Eastwood
3636 S. Alameda Street
Suite B197
Corpus Christi, Texas 78411
Email: sandraeastwoodlaw@yahoo.com
Telephone: (361) 688-4900
Fax: (361) 271-1310
Texas State Bar No. 00789274
Attorney for Petitioner

1

Case 6:18-cr-00112 Document 46 Filed on 02/11/20 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

ENTERED
February 11, 2020
David J. Bradley, Clerk

